                               SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE


               AND THE BROADCASTING BOARD OF GOVERNORS


                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-10A                                   Office of Inspections                                      May 2014




                       Inspection of 

           U.S. Interests Section Havana, Cuba






IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   		 Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   		 Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   		 Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                i
                           SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                                 ii
                              SENSITIVE BUT UNCLASSIFIED


                                     Table of Contents
    Key Judgments                                                       1


    Context                                                             2


    Executive Direction                                                 3


      Relations with the Office of the Coordinator for Cuban Affairs    4


      First- and Second-Tour Officers                                   4


      Strategic Planning                                                4


[Redacted] (b) (5)                                                      5


    Policy and Program Implementation                                   6


      Political/Economic Section                                        6


      Public Diplomacy                                                  7


      Consular Affairs                                                  9


    Resource Management                                                16


      Management Overview                                              16


      Real Property                                                    17


      Human Resources                                                  19


      General Services Office                                          21


      Facilities Management                                            25


      Safety, Health, and Environmental Management                     26


      Information Management                                           26


    Quality of Life                                                    28


      Health Unit                                                      28


      Community Liaison Office                                         28


      Employee Association                                             28


      Overseas Schools                                                 29


    Management Controls                                                30


      Excess Currency                                                  30


    List of Recommendations                                            31


    List of Informal Recommendations                                   33


    Principal Officials                                                35


    Abbreviations                                                      36






                                                  iii
                                   SENSITIVE BUT UNCLASSIFIED



        Key Judgments

        		 The U.S. Interests Section Havana advances U.S. objectives in a challenging environment.
            The Chief of Mission and his deputy provide strong leadership.

        		 The consular section has reduced waiting times for Cuban visa applicants and deftly handled
            the increase in American citizens cases. The consular facility and staffing are inadequate for
            the volume and complexity of the current workload.

        		 The political/economic section meets high standards in its reporting, despite limited
            information and host government restrictions that limit opportunities to make representations
            to the Cuban Government.

        		 Public diplomacy is a major focus of the mission. The public diplomacy section has found
            ways to reach out to Cuban civil society, despite government restrictions.

        		 The management section performs well under difficult conditions that hamper its ability to
            provide seamless administrative support.

        		 Local employees are hired under contract and do not receive the same benefits as locally
            employed staff at other missions. The Department of State should explore whether it is
            possible to treat them as locally employed staff rather than contract employees.
[Redacted] (b) (5)




        All findings and recommendations in this report are based on conditions observed during the on-
        site review and the standards and policies then in effect. The report does not comment at length
        on areas where the OIG team did not identify problems that need to be corrected.

        The inspection took place in Washington, DC, between September 3 and October 17, 2013, and
        in Havana, Cuba, from November 5 through 21, 2013. The overseas portion of the inspection
        was truncated because of the partial Federal Government shutdown. Ambassador Pamela Smith
        (team leader), Lavon Sajona (deputy team leader), Paul Cantrell, Eric Chavera, Mark Jacobs,
        John Moran, John Philibin, Iris Rosenfeld, and Steven White conducted the inspection.




                                                1
                                   SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Context


        Cuba is an island nation the size of Pennsylvania with a population of 11 million. The
Cuban Government adopted a repressive one-party communist state in 1959 and expropriated
U.S. properties in 1961. The United States imposed an embargo in 1960 and severed diplomatic
relations in 1961. The United States in 1977 reopened the U.S. Interests Section Havana
(USINT), which operates under the auspices of the Swiss Embassy.

       Mission employees face a difficult working environment. U.S. officers can meet only
with certain government officials. They are allowed to travel only a limited distance from
Havana without special permission. Shipments of supplies, mail, and personal effects are
frequently delayed. Normal banking operations are nonexistent. Consumer goods are scarce and
expensive. Communication facilities are substandard. Surveillance by Cuban authorities is
pervasive.

       U.S. policy toward Cuba is focused on encouraging democratic and economic reforms,
supporting the development of civil society, promoting respect for human rights, and supporting
the Cuban people’s right to self-determination. U.S. assistance supports human rights and
democracy promotion and facilitates a freer flow of information. USINT manages a complex set
of immigration and consular challenges, including in-country refugee and parole programs, a
growing visa workload, and increased requirements to assist the 550,000 American tourists who
now visit the country each year.

        Although economic sanctions imposed by the United States remain in effect, in 2012 the
United States was Cuba’s primary supplier of food and agricultural products and Cuba’s seventh-
largest trading partner in goods. The Department of the Treasury’s Office of Foreign Assets
Control licenses travel by U.S. citizens to Cuba. The Department of Commerce’s Bureau of
Industry and Security authorizes all exports to Cuba.

        In 2009, the United States lifted restrictions on family travel and remittances to Cuba,
expanded the list of humanitarian items eligible for export to Cuba, and announced new
regulations for U.S. telecommunications firms to increase the flow of information to Cuba. In
2011, the U.S. Government took additional steps to increase travel by American citizens to Cuba,
including religious, cultural, educational, and people-to-people visits. It also expanded the
categories of individuals and groups eligible to send and receive remittances, which now exceed
$2 billion a year. Cuban airlines are not allowed to fly to the United States, but the U.S.
Government now authorizes licensed flights from 10 airports in the United States to fly to 7
airports in Cuba. Only three U.S. airports–all located in Florida–currently offer these services.

       In FY 2013, the mission had 51 U.S. direct-hire employees, a cap jointly agreed to by the
United States and Cuba. Total funding, excluding U.S. direct-hire salaries, was $13,119,451.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Executive Direction


        USINT, under the leadership of an experienced Chief of Mission (COM) and deputy
chief of mission (DCM), advances U.S. policy toward Cuba. With the Cuban Government’s
loosening of strictures on relations with the United States and controls over its own citizens, the
United States engages with the Cuban Government and Cuban society in a considerably more
normal fashion than previously possible.

        The COM spearheads outreach efforts. He meets with dissidents now able to travel
abroad and express their viewpoints in international fora. He seeks to make interactions with the
government as business-like and pragmatic as possible. In Washington, he is a respected
interlocutor on Cuba issues on Capitol Hill and throughout the foreign affairs community. His
background in consular affairs has helped the consular section respond ably to a dramatic surge
in the number of Cubans leaving for the United States and Americans traveling to Cuba.

       USINT’s productivity is remarkably high, despite the restrictions, inconveniences, and
impediments imposed by the Cuban Government. Strong section chiefs and agency heads,
dedicated officers at every level, and front office leadership all deserve credit. The COM and
DCM have a traditional division of labor, with the COM focusing more attention externally, both
in Havana and Washington, and the DCM acting internally as chief operating officer. Both spend
more time on operational issues than is typical because even minor administrative actions require
Cuban Government vetting, which can cause delays and complications.

        The COM and DCM recognize the pressures and isolation of American staff living in
Cuba and attend carefully to housing, security, and other quality-of-life issues. They personally
model inclusiveness and informality, while maintaining high standards of ethical and
professional conduct. As a result, most American employees are motivated and have high
morale, although some consular officers suffer from overwork and single employees lack social
outlets at this family-oriented mission. Several officers have extended their tours at USINT,
which is remarkable in a place where services taken for granted at home–such as mail and
Internet access–are grossly inadequate.

        No interagency working group is assigned to address future operational and program
issues at USINT. Issues requiring attention include staffing size and facilities, effective
messaging to the Cuban population, Internet and telecommunications, educational and cultural
exchanges, medical equipment and pharmaceuticals licensing, private enterprise potential, and
refugee and parole programs. The Bureau of Western Hemisphere Affairs needs to take the lead
in establishing a working group.

Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination with the
Office of the Under Secretary for Political Affairs and the Bureaus of Overseas Buildings
Operations and Diplomatic Security, should establish an interagency working group to develop
and implement a strategic plan that addresses operational and program issues affecting the U.S.
presence in Cuba. (Action: WHA, in coordination with P, OBO, and DS)




                                         3
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Relations with the Office of the Coordinator for Cuban Affairs

        Sixteen employees work in the Office of the Coordinator for Cuban Affairs, one of the
Department’s largest country desks. Communication within the office and between the office and
USINT could be improved. Unreliable telephone and Internet connectivity in Havana is a
problem, overcome only in part by weekly secure phone conferences. The sensitivity of U.S.
policymaking on Cuba means that oral communications often replace official messages. Not all
the coordination office’s operations are transparent to USINT or to working-level office staff,
and sometimes mixed or faulty signals from the coordinator’s office require USINT leadership to
intervene with Bureau of Western Hemisphere Affairs leadership. USINT’s efforts to achieve
U.S. objectives in Cuba would benefit from more visible, assertive advocacy from management
in the coordinator’s office. Compounding these difficulties, the coordinator has not visited
USINT since his assignment in Havana began more than a decade ago.

Recommendation 2: The Bureau of Western Hemisphere Affairs should require the director of
the Office of the Coordinator for Cuban Affairs to visit Havana at an early opportunity. (Action:
WHA)

First- and Second-Tour Officers

        Most first- and second-tour (FAST) officers work in the consular section, which has seen
a surge in workload. A majority of them expressed concerns to the OIG team about the limited
time and attention paid by consular section management to their career development. The COM
includes FAST officers when he travels, and the DCM hosts events at his residence for them.
Although helpful, these activities do not fully address FAST officers’ concerns. The mission
needs to strengthen and formalize its professional development for these officers, including
providing effective mentoring.

        The mission maintains a spreadsheet of activities that each FAST officer should complete
while in Havana, including tasks such as serving as note-taker at a foreign ministry meeting. In
practice, few officers have completed these recommended activities, due in part to a heavy
interview workload in the consular section. FAST officers in the consular section are not being
given sufficient professional development opportunities.

        Informal Recommendation 1:The U.S. Interests Section Havana should strengthen and
        formalize its program for first- and second-tour officers, including mentoring and
        opportunities to perform professional activities outside the consular section.

Strategic Planning

        Under the DCM’s chairmanship, USINT in 2013 prepared its first 3-year Integrated
Country Strategy to identify its key goals for 2014–2016. The mission supplemented the ICS
with a 1-year Mission Resource Request budgetary document that will be updated on an annual
basis. All sections contributed to the strategy, and all sections and agencies work within its
framework to achieve these goals.




                                        4
                           SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5)




                                  5


                     SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED




Policy and Program Implementation
Political/Economic Section

Staffing and Background

       The combined political/economic section, under the leadership of a respected counselor,
meets high standards while working in a largely hostile environment. Examples of this adversity
include restrictions on how far U.S. embassy employees may travel outside of Havana and
constant surveillance of U.S. and local employee staff members. U.S. officials include an
Expanded Professional Associate Program staff member, who departs in summer 2014, and a
U.S. Coast Guard officer, whose portfolio includes drug interdiction, law enforcement
collaboration, and ensuring safe migration. The section enjoys high morale; U.S. employees
frequently extend tours.

Local Employees

        The suspicions harbored by the local government complicate relations between U.S. and
locally employed (LE) staff in the section. Nonetheless, working relations between U.S. officers
and the section’s three Cuban employees are collegial. Training opportunities for LE staff have
included travel to the United States. The counselor hosts a weekly meeting of all section
employees, and the American officers try to visit the local employees’ shared office as much as
possible. Some weekly meetings are postponed, however, and some officers do not visit with the
local employees every day. The OIG team counseled American officers about the importance of
frequent contact with the Cuban staff and suggested they reschedule any postponed meetings.

Reporting and Representation

        The section engages with the government, business community, and civil society to the
extent possible, given official restrictions. As a result of these restrictions, the section makes
representations only to the foreign ministry and drug, maritime, aviation, and postal authorities.
Some third country missions and business firms shy away from contact with USINT for fear of
offending the Cuban Government. The section seeks sources from all walks of life, including
visa and refugee applicants and non-official contacts.

        The section cannot meet with most Cuban ministries for reporting or representation
purposes. Political and economic information is difficult to obtain, often does not meet
international standards, and is frequently outdated. Cuba does not belong to any international
financial institutions, which further complicates the acquisition of reliable and timely economic
data. The mission does not include representatives from many U.S. agencies often found
overseas, including the Agency for International Development, the Department of Defense, the
Drug Enforcement Administration, the Centers for Disease Control and Prevention, the
Department of Commerce, the Department of Agriculture, and most law enforcement
entities/agencies other than the Coast Guard officer and the regional security officer.
Commercial efforts are limited to what the political/economic section can do with its own
resources under U.S. sanctions. Law enforcement and military-to-military cooperation is
minimal. Exchange of information on drug interdiction is limited.

                                        6
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Despite these obstacles, a variety of Department and Washington offices praised the
volume and quality of reporting. Most noted an improvement in the quality of reporting
following the arrival of the section’s counselor in summer 2012. The Department’s Office of
Trafficking in Persons would like to see more efforts by the mission to encourage greater Cuban
trafficking prevention measures and implementation. To that end, the mission recently hosted a
rare digital video conference among the trafficking office and other Department officials, Cuban
Embassy officials in Washington, and Cuban Government officials in Havana. For the second
time since the mission reopened in 1977, Cuban Government officials visited the mission to
attend the video conference.

Foreign Assistance

       U.S. foreign assistance to Cuba is largely administered from Washington, with a small
portion flowing through the public affairs section. The political/economic section does not
administer or monitor any assistance, but it assists the public affairs section in its efforts,
including hosting monthly gatherings of large groups of Cuban civil society participants and
dissidents at the mission or front office residences.

Public Diplomacy

       USINT identifies public diplomacy as the mission’s primary instrument for reaching out
to Cuban civil society. The mission’s chief audiences are actors in civil society, young people,
and cultural and online communities. The COM chairs a weekly PD meeting that includes the
DCM and officers from the public diplomacy and political/economic sections.

Outreach and Training Activities

          Almost no traditional public diplomacy programs, including information and exchange
activities, can be carried out in Cuba. USINT conducts a number of training programs that seek
to fill the gap by fostering contact between Americans and Cubans and providing information
about the United States. The subject matter of the training programs includes basic journalism,
computer literacy, governance, and the English language. Some of these programs are conducted
online. The section also hosts receptions, discussions, and other activities, such as photography
exhibits and “short message service” competitions. The OIG team witnessed significant interest
and participation in public diplomacy activities on the part of Cuban citizens, as well as the
difficulties they face obtaining access to the mission and mission resources.

        USINT personnel, including the COM, conduct briefings several times a week for U.S.
citizens traveling in Cuba. Cuban Government tour guides escort the groups around Havana and
the island and set up briefings for them. The briefings provide a useful corrective point of view
on issues, including the embargo, the Cuban economy, and the role of the U.S. Government.

Information Resource Center

       USINT personnel believe that Cubans value the free uncensored Internet access more
than any other service of the mission that the Information Resource Center (IRC) provides,
except a U.S. visa. Internet access is rare in Cuba, limited to probably less than 5 percent of the
population. The OIG team observed enthusiasm for the IRC Internet program first hand. Cuban
                                         7
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



users sign up for 90-minute blocks of time at a computer. The center’s work stations were in
constant use throughout the inspection.

        The IRC operation, including a distance learning center staffed by public diplomacy
personnel, is spread across three areas of the building, all of them substandard and rundown. One
center is located in the consular waiting room, where IRC patrons can overhear interviews of
visa applicants. The mission has identified a potential solution that would move the center to
another space, ease congestion in the consular waiting room, and provide a venue where IRC
patrons can concentrate, making efficient use of their 90 minutes at the computer. Longer term,
the mission will have to bring the IRC operation into a single space with adequate infrastructure.
This will improve staff efficiency, simplify administration, and enhance the users’ experience. In
any future scenario, the resources of the IRC will continue to be a major asset of the mission, and
the demand for them will continue to increase.

Media

        The Cuban Government owns and controls all Cuban media. Freedom of the press is
nonexistent. The public diplomacy section produces two daily summaries of Cuba-related news
articles, focusing largely on items from the international media. Their diverse readership includes
the mission and Washington offices, other diplomatic missions in Havana, and American
journalists. Some individual Cubans also receive the summaries, which provide an efficient way
to follow Cuba issues in a country in which Internet access remains problematic. Because of
Cuban Government restrictions, the mission is seldom able to engage with journalists working
for government organizations. Given the difficulty of dealing directly with journalists, the public
diplomacy section prepares and distributes compact discs with information in Spanish about the
United States and related issues, such as freedom of the press, to selected Cuban contacts. The
loss of an experienced senior local employee dealing with press issues has made a challenging
job more difficult. It is important to find a replacement.

        As with the Internet, social media presence in Cuba is low. The mission maintains a
Facebook page and a Twitter account, and the public diplomacy section also maintains USINT’s
homepage. Despite low Internet presence, it makes sense for the mission to put time and
resources into social media because those platforms allow USINT personnel to engage some
younger Cubans with whom they would not otherwise have any contact. The DCM has been an
active user and proponent of social media.

Staffing

        USINT ranks a cultural affairs officer position first on its list of needed personnel. The
OIG team concurs that a cultural affairs officer is needed to expand outreach to include the kinds
of educational and cultural exchange programs that the Department supports worldwide. In any
likely scenario of change in Cuba, a robust public diplomacy capacity will be required to achieve
U.S. policy goals.

Regional English Language Officer

        The regional English language officer has not been able to visit USINT because of visa
issues but is able to provide support via email, the Internet, and digital video conferences,
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



without visiting the country. The portfolio of the incumbent includes several countries in Europe
as well as Cuba. The OIG team concurs with USINT that an officer with a connection to
Spanish-speaking countries in the Western Hemisphere would have more impact on its English
programs and that the public diplomacy section would benefit from increased connections with
English-language operations in the region. The Bureau of Educational and Cultural Affairs
supports this position.

        Informal Recommendation 2:The U.S. Interests Section Havana should request that the
        Bureau of Educational and Cultural Affairs reassign the Cuba portfolio to a regional
        English language officer with responsibility for other Spanish-speaking countries
        nearby.

Consular Affairs

        The consular section provides nonimmigrant visas and immigrant visas, and American
citizens services. It also processes a large number of parole applications on behalf of U.S.
Citizenship and Immigration Services (USCIS), a part of the Department of Homeland Security.
At the time of inspection, the consular section was adapting to a number of major changes in
workload.

       The section had recently completed the first phase of an effort to reduce wait times for
nonimmigrant visa appointments after experiencing explosive increases in demand earlier in the
year. Consular managers had also begun implementing a plan to consolidate LE staff from the
nonimmigrant visa, IV, and Information units into one operation. Their most visible success has
been reducing wait time for nonimmigrant visa appointments from nearly 5 years to less than
6 months.

        Effective January 2013, the Government of Cuba abolished the requirement that Cubans
obtain exit visas in order to leave the country. Demand for nonimmigrant visa appointments
ballooned. Perhaps most significant, a wider range of Cubans, including young people,
professionals, and children, are now able to travel abroad. Productivity increases have allowed
the section to handle the new wave of visa applicants. It issued visas to 50 percent more Cubans
in FY 2013 than in FY 2012.

        The number of U.S. citizens traveling to Cuba has also increased markedly. USINT
estimates the number of Americans visiting Cuba in 2012 at 550,000. Nearly 100,000 were
traveling with organizations granted specific licenses by the Department of the Treasury to
sponsor and organize educational exchange programs known as “People-to-People Groups.”
One-third more Americans visited Cuba in this manner in 2012 than in 2011. In addition, an
estimated 450,000 Cuban Americans received licenses to travel to Cuba in 2012 to visit family
members. An undetermined number of U.S. citizens also traveled to Cuba in contravention of the
travel ban that same year. As an example of the added workload, USINT reported that the
number of death cases it handled in FY 2013 increased nearly 50 percent over FY 2012.

       The section also processes parole applications for USCIS. In FY 2013, the section
processed nearly 14,000 parole cases, a component of the 20,000 Cuban nationals that the U.S.
Government is obligated to allow to immigrate to the United States annually under the 1994–
1995 U.S.-Cuba Migration Accords. The section has processed parole cases since 1995.
                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recently, USCIS proposed taking over processing of parole cases. At the time of inspection, the
National Security Staff was reviewing the proposal.

       Also contributing to the 20,000 quota is the in-country refugee processing program,
which the Department’s Bureau of Population, Refugees, and Migration operates jointly with
USCIS at a building known as the “annex,” 2 blocks from the chancery.

Consular Leadership and Management

        The consul general’s successful effort to improve visa processing capacity made it
possible for Cubans to travel to the United States within months rather than years of requesting
an appointment. To improve processing, USINT persuaded the Bureau of Consular Affairs (CA)
to provide additional temporary duty consular officers to support existing staff. The consular
management team coached officers to improve their interview speed and tweaked the application
process to improve efficiency. Productivity increased by a factor of four, as the consular section
went from interviewing 120 to 150 applicants per day to an average of more than 500.

First- and Second-tour Officers

        This success has not come without costs. Many of the section’s 12 FAST officers report
that the pressure to interview so many cases leaves them little time for their other duties in the
section, much less for professional development activities outside the section. The combination
of long hours spent interviewing visa applicants and the stresses of life in Havana have resulted
in low morale among many FAST officers in the section. The consul general needs to address
low morale among FAST officers with the same energy he has brought to improving visa
operations. Involving FAST officers in planning, as well as executing, management initiatives
like the visa processing surge would increase a sense of buy-in and accomplishment.

        Informal Recommendation 3:The U.S. Interests Section Havana should delegate to
        first- and second-tour officers greater responsibility for finding solutions to consular
        section problems, while closely monitoring their performance and providing coaching,
        as needed.

        Consular managers need to do a better job matching workload with the number of
available interviewing officers. Typically, consular managers schedule a large number of
nonimmigrant visa appointments for a future time on the basis of the expectation that additional
TDY officers will arrive in time to assist with the extra work. Their arrival is frequently delayed
because they are unable to obtain Cuban visas, forcing FAST officers to work extra hours on the
interview line to handle the increased number of applicants. Section leadership could do a better
job scheduling interviews. The visa appointment system provides enough flexibility to refine
appointment scheduling. Managers planning several months ahead can make fewer appointments
available for each day and later make additional appointments, if staffing is adequate.

        Informal Recommendation 4:The U.S. Interests Section Havana should schedule
        nonimmigrant visa appointments with greater flexibility and attention to actual staffing
        levels.


                                       10
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Another factor damaging morale is that some FAST officers are more productive than
others and have to work longer hours to compensate for their slower colleagues. Consular
managers schedule appointments assuming that each officer will interview at least 110 applicants
per day. In reality, some officers interview as many as 140 applicants a day, but others interview
as few as 80. The rate at which the top producing officers are expected to interview is not
reasonable or sustainable for the long term. Consular managers have not addressed this
imbalance.

           Informal Recommendation 5:The U.S. Interests Section Havana should involve first-
           and second-tour officers in developing training programs to improve performance and
           hold accountable officers who fail to meet performance targets.

        Each FAST officer has a portfolio of responsibilities in the consular section. Many of
these duties provide excellent opportunities to develop managerial skills and build substantive
knowledge. These responsibilities are not distributed equitably among the section’s 12 FAST
officers, however. For example, one officer is chief of one functional unit and the backup for
several others and unable to keep up with all these responsibilities. Other officers have relatively
few substantive responsibilities and express a desire for more management responsibility.

           Informal Recommendation 6:The U.S. Interests Section Havana should distribute
           consular duties equitably among first- and second-tour officers.

        Like FAST officers in the nonimmigrant visa unit, those in the IV unit report feeling
overwhelmed by the volume of cases they are required to interview each day. Several officers
described the system used for scheduling IV appointments as opaque. They saw no relation
between the number of cases scheduled and the number of officers available to interview them.
For example, during the OIG team’s visit, the National Visa Center, which schedules IV
appointments according to input from the consular section, had for unknown reasons doubled the
number of appointments for 1 week. IV scheduling is more complicated than in most consular
sections. USINT’s consular section also processes parole cases under the Cuban Family
Reunification Program on behalf of USCIS. Appointments for applicants for this program were
scheduled years ago and are difficult to change. Consular managers need to gain better control of
the scheduling of IV and parole appointments and adjust appointments to match the availability
of officers to interview them.

           Informal Recommendation 7:The U.S. Interests Section Havana should establish a
           process for scheduling immigrant visas and parole interviews and set appointments at a
           level appropriate for the number of officers available.

Staffing

        USINT cannot sustain the elevated pace of nonimmigrant visa adjudications without
increasing the number of consular officer positions. By mutual agreement of the two countries,
American officer positions at USINT are capped at 51. Because of this cap, it is unlikely that
new permanent officer positions can be established in the short term. However, longer-term
temporary duty officer assignments – as long as a year – could provide the staffing level the
section needs.

                                         11
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 3: The U.S. Interests Section Havana should request that the Bureau of
Consular Affairs provide long-term temporary duty officer support. (Action: USINT)

Consular Facilities

         Havana’s consular operations are located in a hodgepodge of disconnected offices and
waiting rooms that provide too little space for operations in some areas, while underusing space
in other locations. In July 2013 the Bureau of Overseas Buildings Operations sent a team of
architects and planners to Havana to review consular facilities and develop options for improving
operational processes and reconfiguring and remodeling the section. The Bureau of Overseas
Buildings Operations released a report in September 2013 concluding that USINT’s consular
facility is poorly adapted to current workload and is inadequate to meet the demands of increased
workload. The report describes a number of options, ranging from no-cost or low-cost changes to
extensive remodeling of the section.

       USINT has requested that the Department approve a plan described in the Bureau of
Overseas Buildings Operations report as “Modification Scheme C,” which includes a major
reconfiguration of the consular section at an estimated cost of $9 million. The reconfiguration is
needed to address current workload and essential for keeping up with the growth of the
nonimmigrant visa and American citizens services workload.

Recommendation 4: The U.S. Interests Section Havana should request that the Bureau of
Overseas Buildings Operations and the Bureau of Consular Affairs expedite their consideration
of a major reconfiguration of the consular section. (Action: USINT)

        While USINT’s request for a reconfiguration project is under consideration, a number of
no-cost or low-cost improvements described in the Bureau of Overseas Buildings Operations
report could improve efficiency and customer service. USINT has already implemented some of
these changes. Additional changes that should be implemented include improved signage, a
public address system for the exterior interview area, and removing the IRC from the consular
section’s interior waiting area.

Recommendation 5: The U.S. Interests Section Havana, in coordination with the Bureau of
Overseas Building Operations and the Bureau of Consular Affairs, should implement no-cost and
low-cost changes to improve consular section facilities. (Action: USINT, in coordination with
OBO and CA)

Consolidation of Locally Employed Staff

        The consular management team has begun to consolidate the nonimmigrant visa, IV, and
Information units. The plan calls for LE staff members to work in teams of five and for the teams
to rotate from one work activity to another one every 3 to 4 months. The objective is to improve
the flexibility and responsiveness of LE staff by broadening their skills and varying their work
assignments. In revising position descriptions, the section leadership discovered that some local
staff did not have the English skills required in their position descriptions. Consular managers
responded by creating an English-language improvement program for LE staff. This program
would not be necessary if managers had regularly evaluated the performance and skills of LE
staff members and required improvement plans when skills were not sufficient.
                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Recommendation 6: The U.S. Interests Section Havana should put in place a plan to review
local consular staff performance and skills, verify that staff members have all requisite skills, and
implement improvement plans, where appropriate. (Action: USINT)

American Citizens Services

         The American citizens services unit has significantly improved its ability to assist U.S.
citizens in Cuba. The American citizens services officer and her staff have expanded their
outreach efforts to match the growing number of U.S. citizens visiting the country. Additionally,
the public diplomacy section offers regular briefings to visiting U.S. citizens to alert them to
hazards and familiarize them with the assistance available at the consular section. USINT
officers’ travel is limited to within Havana province. Permission to travel outside that area
requires sending a diplomatic note a minimum of 5 days before travel begins. To prepare for
emergencies involving U.S. citizens, the American citizens services officer met recently with
government officials to request a fast-track method of gaining approval for travel outside the
restricted area in emergencies. Cuban officials appear inclined to cooperate with this request, and
already the American citizens services unit has received direct telephone numbers for
government officials who can assist in a crisis.

        Informal Recommendation 8:The U.S. Interests Section Havana should implement a
        fast-track method of obtaining Cuban Government approval to travel outside Havana for
        emergencies involving U.S. citizens.

        The American citizens services unit communicates regularly with its wardens throughout
Cuba. In November 2013, it hosted the first town hall meeting in 12 years for U.S. citizens
resident in Cuba. The American citizens services officer also met recently with Cuban authorities
to establish a procedure for dealing with death cases. For the first time in many years, the
American citizens services staff established a means of transporting decedents’ remains to the
United States via charter airlines. In April 2013, staff from the American citizens services unit,
the regional security office, and other sections received unprecedented assistance from Cuban
officials in coordinating the repatriation of two children abducted from the United States.

Consular Management Controls

       USINT’s Class B cashier does not always provide the accountable consular officer with a
copy of the OF-158 receipt on a daily basis, as required.

Recommendation 7: The U.S. Interests Section Havana should require the Class B cashier to
provide the accountable consular officer with an OF-158 receipt for consular deposits daily.
(Action: USINT)

       The Bureau of Consular Affairs’ Consular Integrity Division reports that consular
managers and the DCM do not perform all required nonimmigrant visa adjudication reviews in a
timely manner.

Recommendation 8: The U.S. Interests Section Havana should perform all required
nonimmigrant visa adjudication reviews in a timely manner. (Action: USINT)

                                        13
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Consular Fee Collections

                 The consular section collects all machine-readable visa application fees for nonimmigrant
visa on-site. While most consular sections collect fees off-site through banks, this option is not
available in Havana because of Department of the Treasury regulations that restrict U.S. banks
from doing business in Cuba. This fact slows the intake process for nonimmigrant visa applicants
and creates extra work for USINT’s Class B cashier, who is required to account for [Redacted] (b) (5) to
[Redacted] (b) (5)
                   each day.

        The consular section plans to implement, under CA’s Global Support Strategy, a new
practice that would make it possible for visa applicants’ family members in the United States to
pay the application fee via credit card. The section would continue to collect fees on-site and to
serve applicants unable to use the new payment option, as well as applicants from other
countries. Consular managers anticipate that, under the new policy, the majority of fee
transactions will be paid by credit card in the United States.

Parole Processing

        In addition to processing immigrant visas for Cuban beneficiaries, the consular section’s
IV unit also processes a large number of public interest parole cases on behalf of USCIS.
Although consular staff does virtually all the processing, a USCIS officer spends 1 day per week
formally adjudicating parole applications. The IV unit approved nearly 14,000 parole cases in
FY 2013 and devoted approximately 2.5 consular officers, as well as numerous LE staff
members, to accomplish this. In 2012, USINT proposed that USCIS take over responsibility for
processing parole cases, with the goal of moving much of the casework to the United States.
Subsequently, USCIS made its own proposal to take over processing of parole cases. The
proposal would keep all processing in Cuba and create three new USCIS office positions at
USINT, using space in the consular section, and eight LE staff positions.

        Because of the cap on American officer positions, USINT would have to give up two
consular officer positions – the number currently needed to process parole cases – to
accommodate two of the three new USCIS positions. The USCIS proposal, however, includes
creating one additional permanent USCIS officer position over and above the cap. This increase
would not be possible unless the overall cap were raised. A new USCIS officer position is not
high on USINT’s priority list. The OIG team believes two officer positions are sufficient to
process the parole caseload. The consular section currently uses 2.5 officers to process paroles.
Given demands on the consular section’s already cramped and dysfunctional physical plant and
the limited number of American officer positions, USINT’s original proposal to move much of
the process to the United States makes the most sense.

Recommendation 9: The Bureau of Consular Affairs, in coordination with the Bureau of
Western Hemisphere Affairs, should support the U.S. Interests Section Havana’s proposal that
U.S. Citizenship and Immigration Services take responsibility for processing parole cases for
Cuban nationals and move much of the casework to the United States. (Action: CA, in
coordination with WHA)




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



In-Country Refugee Processing

        Cuba and Iraq are the only two nations where refugee applications are accepted and
processed in-country. Since 1995, the refugee admissions program has been administered from a
USINT annex 2 blocks from the chancery. The annex houses the Bureau of Population,
Refugees, and Migration’s Resettlement Support Center as well as the USCIS field office. A
Bureau of Population, Refugees, and Migration refugee coordinator manages the resettlement
center and its staff of 22 local and third country national employees. Third country national
staffers pre-screen applications and conduct interviews. A USCIS officer then determines
refugee status for cases that meet eligibility criteria. USCIS sends teams of temporary duty
officers to Havana several times a year to conduct these interviews. If refugee status is granted,
USCIS passes the case back to the resettlement center, which completes the remaining logistical
steps, including matching the refugee with a resettlement agency in the United States and
arranging for travel to the United States.

         Cases waiting for the initial pre-screen interview–approximately 12,500 applicants–are
experiencing a nearly 5-year backlog. The Bureau of Population, Refugees, And Migration
refugee coordinator has launched an effort to reduce the pre-screen backlog. Her review of
preliminary questionnaires concluded that many pending applicants no longer meet eligibility
criteria. She has provided pre-screeners with clearer guidance and estimates that, barring any
unexpected growth in the number of new applications, she and her staff will be able to reduce the
backlog by one third or more in the coming year. The resettlement center has discovered an
increased number of fraudulent documents in refugee applications. Pre-screeners would benefit
from training to identify fraudulent applications.




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
              Agency                   U.S.        U.S.      Foreign      Total    Total Funding
                                      Direct-     Local-     National     Staff      FY 2013
                                       Hire        Hire       Staff
                                       Staff      Staff
Department of State
Diplomatic & Consular Programs              11           2          13        26       $2,256,072
ICASS                                        5           4         208       217       $5,417,700
Public Diplomacy                             2           2          10        14         $413,690
Diplomatic Security                          4           1          79        84         $185,911
Marine Security                              9                       5        14         $186,980
Representation                                                                 0          $30,809
Consular Affairs                            16           3          48        67       $1,269,887
OBO                                                                            0       $2,115,037
Population, Refugees and                     1           2          19        22         $754,979
Migration
Department of State Subtotal                48         14          382       444      $12,631,065
Department of Homeland
Security
Coast Guard                                  1                                 1         $139,528
USCIS                                        2                        5        7         $348,858
Other Agency Subtotal                        3                       5         8        $488,386
Totals                                      51         14          387       452      $13,119,451

Management Overview

        USINT’s management section faces considerable difficulties working with the Cuban
bureaucracy. Some service standards suffer as a result. USINT cannot function well without the
cooperation and support of Cuba’s Ministry of External Relations and the diplomatic services
branch of the Council of State, known as PALCO. Some recent indications point to greater
responsiveness to USINT requests, and PALCO’s record is telling. Shipments of official
procurements take 6 months or more to be cleared even after receiving pre-clearance from the
Ministry of External Relations–another lengthy process. Unclassified pouches with personal mail
are often rejected and sent back to the United States. Incoming household effects, which take
1 day to sail from Miami to Havana, have sat for months in the port awaiting clearance; the same
holds for personal vehicles and consumables. In the meantime, offices go without equipment and
supplies, the maintenance section lacks materials to repair buildings and residences, and
employees and their families go without familiar foods, medicines, clothes, children’s toys,
transportation, computers, and books. Other diplomatic missions have informed mission staff
members that their shipments are cleared more quickly than USINT’s cargo.


                                      16
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Inspectors found that USINT is not in regular communication with the Bureau of
Diplomatic Security’s Office of Foreign Missions on issues of reciprocity. Since the movement
of diplomatic pouches, cargo, and personal shipments is covered under the Vienna Convention
on Diplomatic Relations, USINT should inform the Office of Foreign Missions and the Bureau
of Western Hemisphere Affairs on a regular basis of delayed shipments and other reciprocity
issues. The inspectors discussed this issue with management leadership, which is in the process
of preparing a comprehensive report to the Office of Foreign Missions. The inspection team
concluded that it would be useful for the Office of Foreign Missions to send an official to
Havana for a site visit and for USINT management to meet with the Office of Foreign Missions
officials whenever in the Department.

        Informal Recommendation 9:The U.S. Interests Section Havana should communicate
        regularly with the Department of State on reciprocity issues and request a visit to
        Havana by the Office of Foreign Missions.

Real Property

       USINT is located in a U.S. Government-owned building constructed in 1951 as a
chancery and substantially renovated in the early 1990s. The land was first leased from the
Cuban Government in 1949 for a 90-year term with a 90-year extension. In exchange, the U.S.
Government leased three residences (in Havana, Matanzas, and Santiago) to the Cuban
Government, also for 90 years.

        The facilities management team has sought to keep the mission facility attractive,
functional, and safe, and has succeeded in most respects. A major roof replacement project is in
the planning stages with the Bureau of Overseas Buildings Operations. CA and the Bureau of
Overseas Buildings Operations have developed a space usage and expansion plan for the
consular section in response to the large growth in consular workload and staffing, but it has not
yet been approved.

        The Department constructed and first occupied the U.S. Government-owned COM
residence in 1942. The original eagle from the monument to the victims of the battleship Maine,
which was toppled following the Bay of Pigs invasion, adorns the grounds. Representational,
family, and guest spaces are well appointed. The residence is well maintained and furnished, but
over time will require substantial improvements, such as the roof replacement project now under
consideration by the Bureau of Overseas Buildings Operations.

      Short-term-leased properties in Havana include an annex, which houses Department of
Homeland Security and the Bureau of Population, Refugees, And Migration, a warehouse, the
DCM residence, a two-house Marine detachment compound, and residential housing for all other
USINT American staff. These properties are all covered under an umbrella lease agreement with
PALCO.

        For 18 years, the Bureau of Population, Refugees, And Migration has occupied the
“temporary” annex building, which has outlived its usefulness. The office and waiting areas of
this former residence are severely overcrowded. The large number of file cabinets located on the
second floor threatens the structural integrity. The OIG team identified fire hazards as well. The

                                       17
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



facilities manager has taken steps to improve conditions but a major Bureau of Overseas
Buildings Operations review is needed without delay.

Recommendation 10: The Bureau of Overseas Building Operations should implement a
comprehensive plan to address security, structural, fire safety, and space planning deficiencies at
the U.S. Interests Section Havana annex building. (Action: OBO)

Financial Management

        The financial management section functions in the face of Cuba’s financial and banking
sector and diplomatic restrictions. Funds management, vouchering, and payroll operations work
well, although limited Internet bandwidth causes disruptions and delays in processing
transactions. USINT has a large cashier operation because most financial transactions are in cash
due to banking and credit card restrictions. Accommodation exchange, consular collections, and
petty cash payments are the most typical transactions handled by the USINT cashier. The
mission has a small checking account in local currency, but many Cuban vendors and other local
entities refuse to accept checks.

        USINT’s expenditures are approximately [ Redacted] (b) (5)                        The
Charleston financial services center granted the mission a waiver from the cash payment
limitations outlined in 4 FAH-3 H-394. An assistant U.S. disbursing officer from Charleston
reviewed cashier operations in March 2013 and found operations working well, citing the
cashier’s expertise and the financial management officer’s technical expertise. The review made
several recommendations, such as publishing a complete set of cashier policies, which were
implemented prior to the OIG inspection.

        Several employees complained about the cashier’s limited hours, particularly consular
officers who cannot leave their section during the cashier’s present hours. The Class B cashier is
open mornings for 14 hours per week; afternoon hours are limited to 1 hour weekly. Various
factors affect the cashier’s ability to expand her hours, including reconciling consular collections
every afternoon and depositing them at the mission’s local bank, accompanied by a USINT
security guard. Monthly unannounced cash verifications can take more than 3 hours. The
management officer recognizes the need to expand cashier hours and he is exploring various
options.

International Cooperative Administrative Support Services

        International Cooperative Administrative Support Services (ICASS) is the cost
distribution system through which agencies budget and share the cost of common administrative
services they receive at missions abroad. USINT uses the ICASS Standard to distribute costs to
34 cost centers. Until 2006, USINT, like many small and medium-sized missions, used the
simpler ICASS Lite system, which distributes the same services to 19 cost centers. It switched to
the more labor-intensive standard process in anticipation of changes in bilateral relations that
would lead to an increase in the mission’s size.

       But USINT staffing has remained static, with only the Department and two other
agencies represented at the mission. A return to ICASS Lite would reduce time spent
administering the program by consolidating workload counts and streamlining reporting. If
                                        18
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



mission staffing changes significantly, ICASS Standard can be reinstated. Department
regulations permit switching ICASS processes, subject to approval by the mission’s ICASS
Board, the regional bureau, and the Department’s ICASS director.

        Informal Recommendation 10: The U.S. Interests Section Havana should request
        Department of State approval to use the International Cooperative Administrative
        Support Services Lite process.

Human Resources

        The human resources section is led by an officer who also serves as the financial
management officer. Human resources operations received mixed scores on the FY 2013 ICASS
customer satisfaction survey and inspection questionnaires. Employees rated services to LE staff
above average but services to American employees as below average. Many American
employees characterized the human resources officer as intransigent and unwilling to seek
creative solutions to human resources issues. The officer is exacting in interpreting personnel
regulations, and when employees are told “no,” the message often lacks tact. The management
officer has counseled the human resources officer to bring potential conflicts to her attention.

        Local employees cannot perform many functions for American personnel; therefore, the
human resources officer relies on a part-time eligible family member to perform many human
resources functions. The current workload may warrant a full-time position. The eligible family
member is departing post this summer, and it is uncertain whether a full-time or part-time
substitute can be found. Should the mission’s American staffing increase substantially, the
Department will need to reevaluate human resources American staffing to ensure workload
demands are met. Meanwhile, the mission has increased opportunities for local staff members to
attend training in the United States.

       Performance evaluations for American and LE staff are timely, and American position
descriptions are accurate. Position descriptions for LE staff affected by the consular
reorganization are under review. In the past, U.S. employee allowances and differential were not
always suspended or resumed properly. The human resources officer has resolved this issue.

Eligible Family Members

       The mission makes effective use of eligible family members to fill gaps and augment its
workforce to meet critical needs. At the time of the inspection, 12 family members served in
mission jobs, leaving only 3 vacancies. Two spouses participate in the Expanded Professional
Associates Programs and fill Foreign Service positions. All family members who wish to work
have jobs.

Locally Employed Staff

        USINT employs approximately 370 Cuban nationals who carry out the same roles and
responsibilities of LE staff at missions worldwide. All diplomatic missions in Cuba are required
to obtain their staff through an umbrella employment contract with the Cuban Government. The
Department, therefore, categorizes USINT LE staff as contractors. Under the contract and
individual work agreements, USINT pays the Cuban Government a monthly fee for each
                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



employee’s services. The Cuban Government withholds a large portion of the fee, ostensibly as
the employee’s contribution to the social welfare system, and pays employees a salary that can
be as little as the equivalent of $10 per month.

        USINT pays local employees a supplement based on salaries paid to local staff at other
diplomatic missions in Cuba. Upon retirement, or after 5 years of service, local employees are
paid a lump sum severance payment of 1 month’s salary for each year employed. USINT
employees receive a small Cuban pension upon retiring (roughly $10 per month), which is far
lower than what is paid to Cuban Government employees, despite the high fees paid to the
contracting agency. The Department’s Office of Overseas Employment is not involved in
USINT’s local compensation plan.

        The hiring and personnel administration processes applied to USINT’s local employees
mirror those of U.S. missions worldwide. For example, USINT advertises positions, recruits
applicants, and makes the final selection to fill positions (although the Cuban Government
sometimes rejects the applicant). Jobs are classified and graded according to worldwide
standards, and the payroll is processed through the financial services center in Charleston. Local
employees receive traditional performance evaluations and are eligible for step increases,
promotions, training opportunities, and some awards. In these respects, USINT’s local
employees cannot be distinguished from those at other U.S. missions.

       The COM supports normalizing the relationship between local employees and the
Department and treating local staff as U.S. Government employees, not contractors. Doing so
would make them eligible for additional benefits, including the special immigrant visa program
and the offshore supplemental retirement plan, when available.

        According to 9 FAM 42.32(d) (2) N4.3, local national employees may be considered U.S.
Government employees if an employer-employee relationship exists. The criteria to make this
determination include the Department’s right to control how and what work is assigned and
performed, the duration of the relationship with the Department, and the payment method. This
is a complex issue with legal, political, and financial ramifications. For example, the Department
would have to determine to what extent the employees could be treated as LE staff, given their
employment relationship with the Cuban Government, and if this relationship could be altered or
even severed.

Recommendation 11: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources and the Office of the Legal Adviser, should determine to what
extent local Cuban staff can be treated as U.S. Government employees eligible for additional
benefits. (Action: WHA, in coordination with DGHR and L)

Special Immigrant Visa Program

       Until 2004, when the practice was stopped, USINT’s Cuban national employees were
allowed to apply to the special immigrant visa program. 9 FAM 42.32(d)(2) N4.1 states that
“where a foreign government requires that it or one its agencies be the technical employer of its
nationals who work for the U.S. Government in that country, an alien may qualify for special
immigrant status provided that the alien was in a bona fide employer-employee relationship with
a U.S. Government department or agency.” During the inspection, the mission submitted a memo
                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



to the Department to recommend reinstating the special immigrant visa program. This process
may proceed independently of the process to convert the employees to U.S. Government
employees.

Recommendation 12: The U.S. Interests Section Havana, in coordination with the Bureaus of
Human Resources and Consular Affairs, should determine whether Cuban nationals employed by
the mission qualify for special immigrant status and, if so, reinstate the program. (Action:
USINT, in coordination with DGHR and CA)

Equal Employment Opportunity

        In October 2013, the COM named two new American Equal Employment Opportunity
counselors and the first-ever local employee liaisons. American counselors and local liaisons
require training, as outlined in 3 FAM 1514.2. Some program materials posted in the mission
have not been translated into Spanish.

        Informal Recommendation 11: The U.S. Interests Section Havana should provide
        Equal Employment Opportunity training to those who require it and post information on
        the program in Spanish.

General Services Office

        The general services office scored well in all areas except procurement and travel
services. These anomalies are due largely to delays within the Cuban bureaucracy and employee
frustration with the e2 travel manager system. The staff is well led and professional, and section
morale is high. The office has embraced the Integrated Logistics Management System to manage
paper flow and improve internal controls.

Travel and Transportation

        The travel and transportation unit is responsible for arranging travel of employees and
their dependents and processing all incoming and outgoing shipments and pouches, both official
and personal. Because Cuba has no private enterprises that specialize in travel or shipping, the
mission cannot contract for these services.

        The travel clerk is overworked. For each traveler, she must book tickets on charter flights
to and from the United States, as well as onward domestic or international travel arranged
through e2 travel manager. Charter flights can be paid for only in cash, so the travel clerk must
go in person to the Cuban Government travel agency with a cash advance from the cashier to
purchase a paper ticket. The assistant general services officer is exploring ways to handle this
process more efficiently.

        The travel clerk also books personal charter flight tickets for employees and their families
and friends who wish to visit Cuba. If friends and family in the United States were required to
book their own charter flights in the United States, the travel clerk would be relieved of
workload associated with arranging personal travel.


                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Informal Recommendation 12: The U.S. Interests Section Havana should determine
        whether friends and families of mission staff can book and purchase charter airline
        tickets in the United States and, if so, cease providing that service.

       The ineffectiveness of the Cuban bureaucracy and its lack of capacity daily challenge the
transportation section. The staff merits commendation for its perseverance. In addition to the
clearance delays cited above, staff report that the Havana port authority has only one crane and
one forklift (not always operable) to move containers, adding to delays. Inbound shipments to
Havana are routed either through the U.S. Despatch Agency in Miami or the European Logistical
Support Office in Antwerp. During the inspection, the Department advised USINT that future
outbound shipments need only be forwarded to Miami for onward shipping. This procedure will
simplify outbound shipping.

        The supply chain between the United States and USINT is mission-critical, and a well-
coordinated process will become more important if the Cuban economy and U.S.-Cuban
relations expand. Mission leadership has taken an active role in nudging the Cuban bureaucracy
at every opportunity, as seen by some signs of slight improvement. Room for improvement exists
on the U.S. end, as well. The shipping staff is in nearly daily contact with the Miami despatch
agency to prioritize and accelerate shipments. Goods destined for USINT, however, must often
await consolidation with other orders before shipment, a step that can add significantly to delays.
Furthermore, USINT must compete with other U.S. missions for despatch agency attention.
Because of USINT’s dependence on shipments from the United States, the Department should
seek ways to expedite the shipping process. One option would be to dedicate a position at the
U.S. Despatch agency in Miami to coordinate all shipments to USINT from Miami.

        USINT does not use door-to-door international government bills of lading, because no
private shipping concerns exist in Cuba that can handle such shipments. The Cuban Government
books all shipments from Havana to Miami. On a more positive note, employees state that Cuban
packers are some of the best they have experienced in their careers. Unfortunately, Cuban
customs authorities open and x-ray both inbound and outbound shipments before they will clear
them. Ministry of Culture officials examine shipments as well, ostensibly to ensure that no
cultural heritage items are exported. These practices should be included in the review of
reciprocity issues noted above.

Housing

        The supervisory general services officer, with the assistance of a housing clerk and third
country national management assistant, manages the USINT housing program. The interagency
housing board meets as required to assign housing. All leased housing is obtained under an
umbrella lease agreement with PALCO. The lease expired in 2012, and the Bureau of Overseas
Buildings Operations and the Office of the Legal Adviser have requested changes to the
language. These changes have been presented to PALCO piecemeal, rather than as a
comprehensive package. This has led to some confusion regarding the status of the negotiations.
In the meantime, PALCO has rejected other requests for housing, pending a signed agreement.
The next best step is for USINT, the Bureau of Overseas Buildings Operations, and the Office of
the Legal Adviser to coordinate a comprehensive umbrella lease proposal for presentation to
PALCO.

                                       22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         PALCO provides the housing inventory, which has been virtually static for many years.
PALCO has been unable or unwilling to provide post with housing better suited to the mission’s
demographic, which includes many more families than in the past. As a result, some employees
are assigned housing that does not meet their expectations. Most housing provided was built
prior to 1958. The sun, heat, and salt air all conspire to deteriorate buildings at a rapid rate,
requiring continuing preventive maintenance. Although responsible for maintaining the housing,
PALCO has responded in a lukewarm fashion, often brought on by its lack of capacity, and the
facilities manager at post often must step in to do the work in the interest of staff safety and
morale.

Motor Pool

         USINT’s motor vehicle program has a number of problems. The vehicle fleet is a
hodgepodge of new, used, dilapidated, and side-lined vehicles. The state of the program is, in
part, a result of restrictions that limit the mission’s ability to import new vehicles and dispose of
old ones, as well as a liberal mission policy on the use of vehicles for both official and personal
use. The supervisory general services officer is taking steps to manage the motor pool better. He
has implemented new procedures on fuel purchases, which will improve management controls.
The motor pool supervisor has made progress in requiring drivers to complete daily trip sheets
and is providing Smith System training to occasional drivers. Much remains to be done in two
major areas: development of a motor pool policy that is in compliance with regulations and right-
sizing the vehicle fleet to meet mission needs.

        The mission’s draft motor pool policy requires considerable revision to bring it into
compliance with regulations. The draft policy designates some services as being “for business
purposes,” such as home-to-office transport for the DCM and transport of employees and family
members during check-in. Regulations on “other authorized use of motor vehicles” cover those
services. In accordance with 14 FAM 433.3-1, the COM must make a written determination that
public transportation is unsafe or unavailable before authorizing transportation for other than
business purposes. He must then determine that such use is advantageous to the U.S.
Government, per 14 FAM 433.3-4. A determination also is required for use of vehicles by on-
call personnel. Those determinations have not been made in full. The inspectors also found no
evidence that the mission had calculated the cost of home-to-office transportation annually, as
required in 14 FAM 434.4a(3). Once the mission implements an updated policy, it should review
its stock of vehicles, per 14 FAM432.2

Recommendation 13: The U.S. Interests Section Havana should implement a motor pool policy
in compliance with Department of State guidance. (Action: USINT)

        USINT’s motor pool fleet consists of 62 vehicles. Fourteen are either unserviceable or in
poor condition. Fourteen replacement vehicles are in transit. A number of the existing vehicles
were purchased used from other diplomatic missions, during a period when the Cuban
Government refused to permit USINT to import official vehicles. As a result, mission employees
operate vehicles that are damaged, unsightly, and possibly unsafe. One vehicle is missing interior
door panels and its gear shift knob. In Cuba, diplomatic vehicles can be sold only to other
diplomatic missions. No mission has expressed interest in purchasing USINT’s unserviceable
vehicles. Recently, GSO identified a Cuban state-owned company that is interested in purchasing
the surplus vehicles. In the meantime, the surplus vehicles occupy valuable parking space.
                                        23
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        Informal Recommendation 13: The U.S. Interests Section Havana should continue its
        efforts to dispose of its surplus vehicles as quickly as possible.

Personal Property Management

        Accountability procedures for personal property such as furniture, equipment, and
expendable supplies are good. During the inspection, the general services office was considering
steps to further tighten controls at the warehouse, which is not manned full-time. Another staff
member suggested that the warehouse supervisor enter issuances of furniture and furnishings
directly into the inventory application, rather than passing a hard copy for her to enter the data.
This would further strengthen controls.

        In the past, USINT auctioned excess property to other diplomats and local employees on-
line. The general services officer determined that this process did not provide adequate
management controls. As a result, the most recent sale was by live auction, which proved to be a
successful and transparent format.

        PALCO leases the warehouse. It is large but dilapidated, and the roof leaks, despite
several efforts by PALCO to resolve the problem. The facilities manager is addressing
maintenance requirements to bring the warehouse up to a higher standard. The two sections of
the warehouse controlled by the property section have very little shelving, resulting in an
inefficient use of otherwise ample space. [Redacted] (b) (5)


        Informal Recommendation 14: The U.S. Interests Section Havana should acquire
        additional shelving for the warehouse [Redacted] (b) (5)


       Three other sections of the warehouse are dedicated to facilities management for use as a
carpentry shop and to store maintenance supplies. These spaces are unsightly and cluttered with
spare parts, making for an unsafe and unprofessional environment.

        The regional security office, facilities maintenance, and the property section each
controls some of the at least 40 20-foot containers that are lined up on the grounds of the
warehouse. Once warehouse shelving is installed, all non-expendable property will be moved
into the warehouse, where it can be easily identified and the containers removed. The warehouse
grounds are unsightly and littered with debris, and high grass and kudzu cover some of the
containers and a used generator.

        Informal Recommendation 15: The U.S. Interests Section Havana should clean up the
        carpentry and maintenance supply sections of the warehouse and the warehouse
        grounds.

Procurement and Contract Management

       The procurement and contracting unit adheres to foreign acquisition regulations and
purchase card program policies. The locally employed procurement clerks report to the assistant
general services officer, who monitors management controls in the unit. The clerks have
                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



government credit cards for purchases from the United States and pre-loaded charge cards for
use at the few Cuban Government vendors who accept them. Otherwise, all local purchases
require cash advances from the cashier. Two of the procurement clerks spend the majority of
their time scouring the local market for supplies and materials, often having to go to several
vendors to fill one basic order. Bulk purchase agreements do not work in Cuba because all stores
are government-owned and such billing processes are non-existent. The mission has no contracts
or grants that require monitoring for trafficking-in-persons violations. The general services office
is examining the benefits of increasing stateside supply orders from bi-annually to quarterly and
establishing an annual flexible procurement plan that can be adjusted as priorities change and
funding is available.

        The procurement staff has not received offshore training. Furthermore, they have never
visited the U.S. Despatch Agency in Miami, which receives and, therefore, authorizes payments
to vendors on behalf of USINT. Some shipments arrive in Havana incomplete, because the
despatch agency does not open boxes to verify that quantities are correct. It would be useful for
both procurement and shipping clerks in the general services to visit the Miami agency to gain a
better understanding of the receiving process there and resolve outstanding issues.

        Informal Recommendation 16: The U.S. Interests Section Havana should send its
        procurement and shipping clerks to the Miami Despatch Agency for consultations.

Facilities Management

        The facilities maintenance section does a good job maintaining U.S. Government-owned
and leased properties in a challenging environment. The USINT office building has been
described as “a ship at sea.” Located adjacent the ocean, it is subject to high winds and salt air
and requires constant attention. Maintenance materials and supplies are usually unavailable on
the local market. Materials and supplies sourced in the United States can take 6 months or longer
to procure, ship, and clear into Cuba; that is if the Cuban Government doesn’t reject them.

         The new facilities manager, the first one permanently assigned in more than a year and a
half, has moved quickly to establish short-, medium-, and long-term goals for the section, build a
case for additional Bureau of Overseas Buildings Operations funds for maintenance and repair,
and strengthen internal management controls. He has established a comprehensive plan and a
dedicated team to address the dire maintenance needs of the annex, which houses Department of
Homeland Security and the Bureau of Population, Refugees, And Migration. New policies
should reduce overtime, after-hours use of official vehicles and the cost of fuel. The general
services and facilities offices are coordinating schedules to keep make-readies on track, and the
facilities manager has created two new teams to make monthly visits to every residence to
address existing and anticipated problems. Continuing maintenance problems at the long-
neglected leased warehouse are getting attention.

        The facilities manager has met with several units of PALCO in an effort to build
relationships and find mutually beneficial solutions to address maintenance issues at PALCO
properties. As a result, PALCO has agreed informally to let USINT purchase materials directly
from its warehouse stock, in return for the mission doing the work on leased properties rather
than waiting for PALCO to respond. The facilities manager also is working with his staff to
develop a rational and defensible budget request to the Bureau of Overseas Buildings Operations.
                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



He is training his supervisors on the Bureau of Overseas Buildings Operations budgeting and
funding categories, so that building and maintenance expenditures are allocated appropriately.
This will enable the facilities manager to get a better picture of his funding requirements and
defend his budget request accordingly.

Safety, Health, and Environmental Management

        As post occupational, safety, and health officer, the facilities manager has identified
numerous weaknesses in USINT’s Safety, Health, and Environmental Management (SHEM)
program. He has established a weekly training day for his staff and plans to procure additional
safety gear and uniforms so that other mission staff and families can easily identify maintenance
workers. The 2011 SHEM report identified numerous priority-one deficiencies that have not
been addressed. The facilities manager is in contact with the Bureau of Overseas Buildings
Operations on these matters and is working with his SHEM assistant on how to address the
deficiencies as soon as possible.

Information Management

        USINT’s information management (IM) program is meeting mission communication
needs in one of the most challenging operational environments of any of the Department’s
overseas missions. Network performance and the staff’s ability to maintain operations directly
affect every aspect of mission operations. Staffing U.S. direct hire positions is problematic,
adding to the challenges of working in the section. Since his arrival in summer 2013, the IM
officer has focused on improving customer service and plans to institute a helpdesk standard
operating procedure that will prioritize service requests.

        The OIG team identified several areas that require IM’s immediate attention. Adequate
staffing is essential and requires careful coordination with the Department. The OIG team
counseled section management in administrator cross-training, position descriptions, and
network security. The classified annex to this report addresses information security issues and
other challenges.

Staffing

         Staffing shortfalls in the IM program were cited as a problem in the 2007 OIG inspection.
System administration is restricted to four U.S. direct-hire positions, making every position
critical. A curtailment for medical reasons in a key American position has left the program short-
staffed. Regional support will fill the gap for only a portion of the expected vacancy, placing an
additional burden on the staff.

        The sheer volume of system administrative duties requires each U.S. information
technology position to be a “hands-on” working assignment. Current technical skills and ability
are vital for each position. Currently none of the American positions is language-designated, but
having Spanish speakers would improve the section’s efficiency.

       During the course of the inspection, the OIG team observed an inequity in administrative
support. The information systems officer with minimal support handles the OpenNet
administration, which encompasses the majority of daily support requirements. That individual is
                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



the only U.S. direct-hire who transferred directly from an overseas assignment and is adequately
familiar with the mission’s systems requirements. Information technology officers assigned to
Havana should have the technical expertise necessary to support the mission’s information
management program.

Recommendation 14: The U.S. Interests Section Havana, in coordination with the Bureau of
Western Hemisphere Affairs and the Bureau of Information Resource Management, should
establish a staffing plan that addresses technical capability and language ability. (Action: USINT,
in coordination with WHA and IRM)

        The IM program previously included an eligible family member position that has not
been filled because of funding restrictions. The OIG team believes the position is needed.

Telephone Charges

        In 2012, the mission’s telephone network was upgraded, giving USINT the capability to
capture call-accounting data. All calls are now billed to the responsible agency, except for calls
originating from the annex building. The annex building’s telephone bill averages $5,000 per
month, a sum currently being borne by the Department, although Department of Homeland
Security personnel make most of the calls. According to 5 FAM 527 (a), executive officers or
their designees should review monthly telephone service statements for accuracy and charges to
seek repayment to the U.S. Government for telephone charges. The purpose of the review is to
maintain management control over Department telephone expenses. During the inspection,
management was in the process of resolving the issue.

        Informal Recommendation 17: The U.S. Interests Section Havana should establish
        accountability controls for telephone call charges originating from the annex building.




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Quality of Life


        The quality of life for American staff and their families is difficult for reasons noted in
this report. As a result of these hardships, American employees are authorized a 25-percent post
differential. They also receive a 20-percent cost-of-living allowance to reflect the high cost of
consumer goods, most of which must be shipped from the United States as part of a consumables
shipment that can take months to arrive. USINT employees also receive three rest and
recuperation trips to Miami over the course of a 2-year tour.

Health Unit

       The health unit received high scores on the OIG questionnaires and on the FY 2013
ICASS customer satisfaction survey. A Foreign Service health practitioner, a full-time local
physician, and a full-time local nurse staff the unit. The Department’s regional medical officer
and regional psychiatrist, located at Embassy Mexico City, support the unit.

        The quality of local medical care is substandard compared to that in the United States.
The former health practitioners found only one hospital adequate to meet basic medical needs.
Even though some providers there are well trained, the availability of equipment and medication
is limited. As a result, the mission and the Department’s Office of Medical Services take a liberal
approach to authorizing employee travel to the United States for treatment.

Community Liaison Office

        The Community Liaison Office (CLO) was in transition during the inspection, with a new
full-time coordinator having recently taken over. The CLO coordinator provides a range of
community services and organizes events to build morale. The COM has asked the coordinator
to make pre-arrival, welcome, and orientation a priority. The nascent employee association does
not have funding for community events, so the coordinator must find other ways to raise funds
within the guidelines established by the Department’s Family Liaison Office. The CLO
organizes group trips, taking the burden of the approvals process for travel outside of Havana off
the employee. The CLO also publishes a weekly newsletter.

Employee Association

       Mission employees formed an employee association in January 2012 after a previous
association was disbanded. The association began operations in late 2012. A single-room facility
in USINT’s basement serves as a convenience store that rents videos and sells a limited selection
of food, snacks, and beverages. The association has 22 members, and cash on hand is
approximately $5,000 in local currency. The association board will survey USINT employees to
determine employee preferences for new edibles and services. The mission will help the
association identify a means to have an annual financial audit performed because no local entity
can do this. Neither the board nor the manager has received training on commissary operations.

        Informal Recommendation 18: The U.S. Interests Section Havana should request
        training materials from the Office of Commissary and Recreation Affairs and other
        assistance as required.

                                       28
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Overseas Schools

       [Redacted] (b) (5), [Redacted] (b) (6)
                                                                        A mission officer
serves as the COM’s representative on the board, which includes representation from other
embassies. The Office of Overseas Schools provides an annual grant to the school, and the
Bureau of Overseas Buildings Operations has provided funding to enhance school security.
USINT assists the school with educational supply shipments. Because athletic and other facilities
do not meet U.S. standards, the Department has authorized an away-from-school education
allowance. [Redacted] (b) (5), [Redacted] (b) (6)                     USINT provides a school
shuttle service.

        In the future, the school will need to expand its facilities, restrict enrollment, or both, if it
is to maintain its high standards. It is important, therefore, that USINT and the Office of
Overseas Schools maintain close ties with the school as it develops and implements its strategic
plan. The Department’s regional education officer for Havana last visited the mission in
December 2009, and an early return to discuss the school’s future would underscore U.S. interest
in [Redacted] (b) (5), [Redacted] (b) (6)

         Informal Recommendation 19: The U.S. Interests Section Havana should request an
         early visit by the Office of Overseas Schools regional education officer.




                                         29
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



       Management Controls

               The COM plays a leadership role in implementing and enforcing effective management
       controls. Documentation in support of his 2013 statement of assurances to the Department was
       comprehensive and thorough. The inspectors found that managers throughout the mission
       continually look for ways to improve controls. The management officer stresses the importance
       of strong controls to her staff on a regular basis. The COM’s 2013 statement identified one
       significant deficiency, involving excess currency, which the mission and Department are
       addressing. The OIG team found no material weaknesses.

       Excess Currency

               The United States and Cuba do not have a direct banking relationship so USINT has no
       direct mechanism by which it can deposit fees collected to the U.S. Disbursing Officer account
       in the United States. Since January 2013, when Cuba eased travel restrictions on its citizens,
       collections have increased dramatically. [Redacted] (b) (5)


                     The Department waived the limit on the authorized advance because the post is not
       able to transfer funds directly. Most applicants pay fees in local currency, but some pay in U.S.
       dollars. At the time of the inspection, the mission had approximately [Redacted] (b) (5)
       plus an equivalent amount in local currency. [Redacted] (b) (5)


                     .

[Redacted] (b) (5)




                                              30
                                  SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




List of Recommendations


Recommendation 1: The Bureau of Western Hemisphere Affairs, in coordination with the
Office of the Under Secretary for Political Affairs and the Bureaus of Overseas Buildings
Operations and Diplomatic Security, should establish an interagency working group to develop
and implement a strategic plan that addresses operational and program issues affecting the U.S.
presence in Cuba. (Action: WHA, in coordination with P, OBO, and DS)

Recommendation 2: The Bureau of Western Hemisphere Affairs should require the director of
the Office of the Coordinator for Cuban Affairs to visit Havana at an early opportunity. (Action:
WHA)

Recommendation 3: The U.S. Interests Section Havana should request that the Bureau of
Consular Affairs provide long-term temporary duty officer support. (Action: USINT)

Recommendation 4: The U.S. Interests Section Havana should request that the Bureau of
Overseas Buildings Operations and the Bureau of Consular Affairs expedite their consideration
of a major reconfiguration of the consular section. (Action: USINT)

Recommendation 5: The U.S. Interests Section Havana, in coordination with the Bureau of
Overseas Building Operations and the Bureau of Consular Affairs, should implement no-cost and
low-cost changes to improve consular section facilities. (Action: USINT, in coordination with
OBO and CA)

Recommendation 6: The U.S. Interests Section Havana should put in place a plan to review
local consular staff performance and skills, verify that staff members have all requisite skills, and
implement improvement plans, where appropriate. (Action: USINT)

Recommendation 7: The U.S. Interests Section Havana should require the Class B cashier to
provide the accountable consular officer with an OF-158 receipt for consular deposits daily.
(Action: USINT)

Recommendation 8: The U.S. Interests Section Havana should perform all required
nonimmigrant visa adjudication reviews in a timely manner. (Action: USINT)

Recommendation 9: The Bureau of Consular Affairs, in coordination with the Bureau of
Western Hemisphere Affairs, should support the U.S. Interests Section Havana’s proposal that
U.S. Citizenship and Immigration Services take responsibility for processing parole cases for
Cuban nationals and move much of the casework to the United States. (Action: CA, in
coordination with WHA)

Recommendation 10: The Bureau of Overseas Building Operations should implement a
comprehensive plan to address security, structural, fire safety, and space planning deficiencies at
the U.S. Interests Section Havana annex building. (Action: OBO)

Recommendation 11: The Bureau of Western Hemisphere Affairs, in coordination with the
Bureau of Human Resources and the Office of the Legal Adviser, should determine to what
extent local Cuban staff can be treated as U.S. Government employees eligible for additional
benefits. (Action: WHA, in coordination with DGHR and L)
                                                31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 12: The U.S. Interests Section Havana, in coordination with the Bureaus of
Human Resources and Consular Affairs, should determine whether Cuban nationals employed by
the mission qualify for special immigrant status and, if so, reinstate the program. (Action:
USINT, in coordination with DGHR and CA)

Recommendation 13: The U.S. Interests Section Havana should implement a motor pool
policy in compliance with Department of State guidance. (Action: USINT)

Recommendation 14: The U.S. Interests Section Havana, in coordination with the Bureau of
Western Hemisphere Affairs and the Bureau of Information Resource Management, should
establish a staffing plan that addresses technical capability and language ability. (Action: USINT,
in coordination with WHA and IRM)




                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




List of Informal Recommendations


        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The U.S. Interests Section Havana should strengthen and
formalize its program for first- and second-tour officers, including mentoring and opportunities
to perform professional activities outside the consular section.

Informal Recommendation 2: The U.S. Interests Section Havana should request that the
Bureau of Educational and Cultural Affairs reassign the Cuba portfolio to a regional English
language officer with responsibility for other Spanish-speaking countries nearby.

Informal Recommendation 3: The U.S. Interests Section Havana should delegate to first- and
second-tour officers greater responsibility for finding solutions to consular section problems,
while closely monitoring their performance and providing coaching, as needed.

Informal Recommendation 4: The U.S. Interests Section Havana should schedule
nonimmigrant visa appointments with greater flexibility and attention to actual staffing levels.

Informal Recommendation 5: The U.S. Interests Section Havana should involve first- and
second-tour officers in developing training programs to improve performance and hold
accountable officers who fail to meet performance targets.

Informal Recommendation 6: The U.S. Interests Section Havana should distribute consular
duties equitably among first- and second-tour officers.

Informal Recommendation 7: The U.S. Interests Section Havana should establish a process for
scheduling immigrant visas and parole interviews and set appointments at a level appropriate for
the number of officers available.

Informal Recommendation 8: The U.S. Interests Section Havana should implement a fast-
track method of obtaining Cuban Government approval to travel outside Havana for emergencies
involving U.S. citizens.

Informal Recommendation 9: The U.S. Interests Section Havana should communicate
regularly with the Department of State on reciprocity issues and request a visit to Havana by the
Office of Foreign Missions.

Informal Recommendation 10: The U.S. Interests Section Havana should request Department
of State approval to use the International Cooperative Administrative Support Services Lite
process.

Informal Recommendation 11: The U.S. Interests Section Havana should provide Equal
Employment Opportunity training to those who require it and post information on the program in
Spanish.
                                            33
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 12: The U.S. Interests Section Havana should determine whether
friends and families of mission staff can book and purchase charter airline tickets in the United
States and, if so, cease providing that service.

Informal Recommendation 13: The U.S. Interests Section Havana should continue its efforts
to dispose of its surplus vehicles as quickly as possible.

Informal Recommendation 14: The U.S. Interests Section Havana should acquire additional
shelving for the warehouse [Redacted] (b) (5)

Informal Recommendation 15: The U.S. Interests Section Havana should clean up the
carpentry and maintenance supply sections of the warehouse and the warehouse grounds.

Informal Recommendation 16: The U.S. Interests Section Havana should send its procurement
and shipping clerks to the Miami Despatch Agency for consultations.

Informal Recommendation 17: The U.S. Interests Section Havana should establish
accountability controls for telephone call charges originating from the annex building.

Informal Recommendation 18: The U.S. Interests Section Havana should request training
materials from the Office of Commissary and Recreation Affairs and other assistance as
required.

Informal Recommendation 19: The U.S. Interests Section Havana should request an early visit
by the Office of Overseas Schools regional education officer.




                                       34
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




Principal Officials


                                                         Name      Arrival Date
Chief of Mission                               John P. Caulfield          09/11
Deputy Chief of Mission                       Conrad R. Tribble           08/12
Chiefs of Sections:
 Management                                     Martina C. Polt          01/13
 Consular                                     Timothy P. Roche           08/12
 Political                                    Thomas A. Palaia           07/12
 Economic                                       Daniel G. Keen           08/11
 Public Affairs                                 Lynn W. Roche            08/12
 Regional Security Officer                    Dennis A. LeBow            07/13
 Population, Refugees, And Migration           Mary P. Doetsch           08/13
Other Agencies:
 Department of Homeland Security               Jorge E. Medina           04/12




                                    35
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CA               Bureau of Consular Affairs

CLO              Community liaison office

COM              Chief of Mission

DCM              Deputy chief of mission

FAST             first- and second-tour

ICASS            International Cooperative Administrative Support Services

IM               Information management

IRC              Information Resource Center

LE               Locally employed

SHEM             Safety, Health, and Environmental Management

USCIS            U.S. Citizenship and Immigration Services

USINT            U.S. Interests Section Havana




                            36
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED






 FRAUD, WASTE, ABUSE,


 OR MISMANAGEMENT


OF FEDERAL PROGRAMS


   HURTS EVERYONE.



          CONTACT THE

  OFFICE OF INSPECTOR GENERAL


             HOTLINE


       TO REPORT ILLEGAL


    OR WASTEFUL ACTIVITIES:




         202-647-3320

         800-409-9926

      oighotline@state.gov


          oig.state.gov



   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778


     Arlington, VA 22219






 SENSITIVE BUT UNCLASSIFIED


